No. ________________
IN THE
SUPREME COURT OF THE UNITED STATES
______________________________________________
EMMETT GARRISON, IV, AKA “LIL EMMETT”,

Petitioner,
Versus
STATE OF LOUISIANA,

Respondent.

______________________________________________
On Petition for a Writ of Certiorari to the
Louisiana Fifth Circuit Court of Appeal
______________________________________________
PETITION FOR WRIT OF CERTIORARI
______________________________________________

Submitted by:
Meghan Harwell Bitoun
Counsel of Record
P.O. Box 4252
New Orleans, LA 70178
(504) 470-4779

1

QUESTION PRESENTED
The Eighth Amendment forbids a sentencing scheme that mandates life in
prison without the possibility of parole for juvenile offenders. Miller v. Alabama,
567 U.S. 460, 479 (2012). While there is no categorical ban on life without parole for
this type of crime, a sentencing court must consider how children are different and
only impose life without parole in the “uncommon” and “rare” case in which a
juvenile’s crime is the product of irreparable corruption. State courts are deeply
divided on whether this requires a presumption against a sentence of life without
parole for a juvenile convicted of homicide, or whether an individual court is at
liberty to apply a presumption in favor of life without parole.
Emmett Garrison was sentenced to life without parole for his participation as
a principal to second degree murder, which he committed prior to his 18th
birthday. In imposing the harshest available penalty, the sentencing court applied a
presumption in favor of life without parole and required Emmett Garrison to prove
he deserved parole eligibility. This approach is inconsistent with the Eighth
Amendment and recent jurisprudence from this Court, and it is internally
inconsistent with approaches taken by different district courts within Louisiana.
Without further guidance, the protections granted under the Eighth Amendment in
a juvenile sentencing hearing will arbitrarily vary depending on the location in
which the juvenile is sentenced. This case thus presents the following question:
1. If the Eighth Amendment forbids automatic life without parole sentences for
juvenile offenders, does a sentencing court have the discretion to impose a
presumption in favor of life without parole?

2

Table of Contents
TABLE OF AUTHORITIES ............................................................................................. 4
PETITION FOR WRIT OF CERTIORARI ..................................................................... 6
DECISIONS BELOW ....................................................................................................... 6
STATEMENT OF JURISDICTION ................................................................................ 6
PROVISIONS OF LAW INVOLVED .............................................................................. 6
STATEMENT OF THE CASE ......................................................................................... 7
REASONS FOR GRANTING, VACATING, AND REMANDING ................................ 9
A. The Question Divides State Supreme Courts. .................................................. 10
B. Unless this Question is resolved, sentencing courts can ignore the
constitutional significance of youth. .......................................................................... 14
C. Resolving the Question Is an Issue of National Importance. .......................... 21
CONCLUSION ................................................................................................................ 22
APPENDIX CONTENTS
APPENDIX A – OPINION OF THE LOUISIANA FIFTH CIRCUIT COURT OF
APPEAL ……….. 1a
APPENDIX B – TRANSCRIPT OF SENTENCING COURT’S JUDGMENT AND
REASONS, IMPOSING SENTENCE OF LIFE WITHOUT POSSIBILITY OF
PAROLE IN STATE OF LOUISIANA V. EMMETT GARRISON……….. 40a
APPENDIX C – MOTION FOR RECONSIDERATION OF SENTENCE FILED BY
EMMETT GARRISON ……….. 56a
APPENDIX D – TRANSCRIPT OF SENTENCING COURT’S JUDGMENT AND
REASONS IMPOSING SENTENCE OF LIFE WITH PAROLE IN STATE OF
LOUISIANA V. DARNELL HUNTLEY ……….. 65a

3

TABLE OF AUTHORITIES
Cases

Commonwealth v. Batts, 163 A. 3d 410 (Pa. 2017) – 11
Conley v. State, 972 N.E. 2d 864 (Ind. 2012) – 12
Davis v. McCollum, 798 F.3d 1317 (10th Cir. 2015) – 13
Graham v. Florida, 560 U.S. 48 (2010) – 17
In re Kirchner, 216 Cal. Rptr. 3d 876 (Apr. 24, 2017)
Jones v. Commonwealth, 795 S.E.2d 705, 726 (Va. 2017) – 12
Miller v. Alabama, 567 U.S. 460, 132 S. Ct. 2455 (2012) – 9, 10, 11, 14, 15, 16, 17,
20, 21, 22

Montgomery v. Louisiana, U.S. , 136 S.Ct. 718, 734 (2016) – 9, 10, 11, 14, 15, 17, 20,
21, 22

Roper v. Simmons, 543 U.S. 551 (2005) – 17
State v. Garrison, 20-547 (La. 9/23/2020), 301 So. 2d 1190 – 6
State v. Garrison, 19-62 (La App. 5 Cir. 4/23/2020), 297 So. 3d 190 – 6
State v. Hart, 404 S.W. 3d 232 (Mo. 2013) – 12
State v. Hauser, 19-341 (La. App. 3 Cir. 12/30/19) – 13
State v. Houston, 353 P.3d 55 (Utah 2015) – 12
State v. James, 813 S.E. 2d 195 (N.C. 2018) – 12
State v. Mantich, 888 N.W.2d 376 (Neb. 2016) – 12
State v. Ramos, 387 P. 3d 650 (Wash. 2017) – 12
State v. Riley, 110 A.3d 1205 (Conn. 2015) – 11
State v. Seats, 865 N.W. 2d 545 (Iowa 2015) – 11, 12

4

State v. Valencia, 386 P.3d 392 (Ariz. 2016) – 12
Constitutional Provisions
U.S. Const. amend. VIII – 6
U.S. Const. amend. XIV – 6
Statutes
28 U.S.C. § 1257(a) – 6
La. C.Cr. P. art. 894.1 – 8, 9
La. C.Cr.P. art. 878.1 – 19
La. R.S. 15:574.4 – 19
Secondary Sources
Alice Rechman Hoesterey, Confusion in Montgomery’s Wake, 45 Fordham Urb. L.J.
149 (2017) – 11
Louisiana Legislature 2017 Act 277 – 19

5

PETITION FOR WRIT OF CERTIORARI
Petitioner Emmett Garrison, IV, respectfully petitions for a writ of certiorari
to the Louisiana Fifth Circuit Court of Appeal in State v. Garrison, 19-62 (La App. 5
Cir. 4/23/2020), 297 So. 3d 190.
PROCEEDINGS BELOW
The trial court issued the sentence in State of Louisiana v. Emmett Garrison
in trial court case number 16-00654, Division “E” of the Louisiana Twenty-Fourth
Judicial District Court. Direct review on appeal of that judgment by the Louisiana
Fifth Circuit Court of Appeal (Appendix “A”) is reported at State v. Garrison, 19-62
(La. App. 5 Cir. 4/23/2020), 297 So. 3d 190. The Louisiana Supreme Court’s order
denying review of that decision is reported at State v. Garrison, 20-547 (La.
9/23/2020), 301 So. 2d 1190.
STATEMENT OF JURISDICTION
The judgement and opinion of the Louisiana Fifth Circuit Court of Appeal
affirming Mr. Garrison’s sentence was entered on April 23, 2020. The Louisiana
Supreme Court denied review of that decision on September 23, 2020. This Court’s
jurisdiction is invoked pursuant to 28 U.S.C. § 1257(a).
PROVISIONS OF LAW INVOLVED
Eighth Amendment to the U.S. Constitution:
Excessive bail shall not be required, nor excessive fines imposed, nor cruel
and unusual punishments inflicted.
Fourteenth Amendment to the United States Constitution:

6

No state shall . . . deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal protection of
the laws.
STATEMENT OF THE CASE
Emmett Garrison spent his childhood in the midst of escalating, retaliatory
gang violence targeting his family and marked by his parents’ substance abuse and
neglect, and he will now serve the rest of his life in prison without parole for
participating as a principal to second degree murder before his 18th birthday. See
trial court record D-2, sealed doc. 90103. In imposing this sentence, the sentencing
court required Mr. Garrison to prove he was entitled to a sentence of life with
parole—applying a presumption in favor of life without parole. See Appendix B,
48a-53a.
At Mr. Garrison’s sentencing hearing, the prosecution did not introduce any
additional evidence beyond the trial court record, relying on the seriousness of the
offense for its argument that Mr. Garrison should be sentenced to life without
parole. See Appendix B, 46a-48a. The only evidence at sentencing about Mr.
Garrison’s capacity for rehabilitation came from a defense expert witness who
concluded that she did not have enough information to say whether Mr. Garrison
was one of those rare juveniles whose crime reflects permanent incorrigibility. See
Appendix B, 45a. Accordingly, the sentencing court did not find that Mr. Garrison
was permanently incorrigible but instead found that Mr. Garrison “has no prospect

7

for any rehabilitation at this time.” Appendix B, 52a (emphasis added). The court
sentenced him to life without parole. Id. at 52a-53a.
The lack of evidence regarding Mr. Garrison’s rehabilitation is central to the
question of this case. Mr. Garrison’s procedural orientation places him in a
distinctive position before the law: changes to Louisiana law in 2017 allowed the
prosecution to seek the harshest possible sentence for second degree murder (which
it no longer allows) but without him having been imprisoned long enough to make a
showing as to his capacity for rehabilitation. The sentencing court held this lack of
evidence against Mr. Garrison and sentenced him to life without the possibility of
parole. Mr. Garrison filed a Motion for Reconsideration of Sentence, on grounds that
the sentencing court had wrongly applied the burden of proof required under this
Court’s Eighth Amendment jurisprudence, which was denied. See Appendix C, 56a

et seq.
On direct appeal, the Louisiana Fifth Circuit Court of Appeal affirmed the
sentence, framing its analysis as though life without parole is the default sentence
under these circumstances. See Appendix A, 27a. Finding that the sentencing court
“considered all of the aggravating and mitigating factors when sentencing
defendant to life imprisonment without the possibility of parole,” the court then
noted in a footnote that “Where there is a mandatory sentence there is no need for
the trial court to justify, under La. C.Cr. P. art. 894.1, a sentence it is legally
required to impose.” Appendix A, 28a, 28a n. 12. The court concluded: “Defendant
has failed to rebut the presumption of the constitutionality of his sentence. The trial

8

court complied with the principles set forth in Miller and adequately considered the
factors set forth in Article 894.1 prior to imposing defendant’s life [without parole]
sentence.” Id. at 27-28. Mr. Garrison sought review from the Louisiana Supreme
Court, which was denied on September 23, 2020.
REASONS FOR GRANTING, VACATING, AND REMANDING
In Miller v. Alabama, 567 U.S. 460, 132 S. Ct. 2455, 2469 (2012), this Court
held that the Eighth Amendment “forbids a sentencing scheme that mandates life
in prison without the possibility of parole for juvenile offenders.” While this Court
stopped short of an outright prohibition on such sentences, it held that only the
rarest juvenile who is irredeemable may receive such a sentence without violating
the Eighth Amendment.
Shortly after Miller, this Court repeatedly emphasized that only the rarest
juvenile could constitutionally receive a sentence of life without the possibility of
parole. Montgomery v. Louisiana, 136 S.Ct. 718, 734 (2016), used the words “rare”
or “rarest” six times in describing when a life-without-parole sentence would be
appropriate after Miller. The “penological justifications for life without parole
collapse in light of the distinctive attributes of youth.” Id. at 734.

Miller and Montgomery declare a life sentence for a juvenile inherently
suspect and almost categorically impermissible, but states are split as to whether
this declaration includes a presumption. Some states have a presumption in favor of
life with parole, some states have a presumption in favor of life without parole, and
some states, like Louisiana, purport to be neutral, allowing a wide variety of results

9

within the state. For example, in the case of Darnell Huntley in Lafayette,
Louisiana, the sentencing court directed a ruling for life with parole because the
prosecution failed to introduce any additional evidence pertaining to the defendant’s
capacity for rehabilitation at the sentencing. See Appendix D, 96a-98a. Yet in this
case, the sentencing court ruled for life without parole, on grounds that Mr.
Garrison had not established that he was capable of rehabilitation. See Appendix B,
51a-52a.
The ruling in this case is contrary to Miller, Montgomery, and the case law on
which they rest. Many states are grappling with how to meet the Eighth
Amendment dictates of this Court’s jurisprudence for children who face life in
prison. Considering the risk that states continue to enforce rules imposing
unconstitutional sentences on children, this Court should grant this petition.
A. The Question Divides State Supreme Courts.
State supreme courts are divided on whether the Eighth Amendment’s
prohibition on automatic life without parole sentences for juvenile offenders
includes a presumption in favor of life with parole. The disagreement among courts
arises from conflicting interpretations of this Court’s decision in Miller and

Montgomery.
Miller and Montgomery explain that the Eighth Amendment prohibits
automatic life without parole sentences for juvenile offenders, and it countenances
such sentences only for the rarest of juvenile homicide offenders. And this rarity is
not because of the rarity of terrible crimes, but because the juveniles as a class are

10

demonstrably capable of rehabilitation while being fundamentally less blameworthy
than adults. Miller, 132 S.Ct. 2465; Montgomery, 136 S.Ct. at 736. A life sentence
constitutes cruel and unusual punishment for all but the most corrupt juvenile
convicted of homicide.
The state supreme courts in Connecticut, Iowa, Utah, Missouri, and Indiana
all held that there must be a presumption against imposing a life sentence without
the opportunity for parole. Alice Reichman Hoesterey, Confusion in Montgomery’s

Wake, 45 Fordham Urb. L.J. 149, 165. Iowa’s Supreme Court ruled the sentencing
court “must start with the Supreme Court’s pronouncement that sentencing a
juvenile to life in prison without the possibility of parole should be rare and
uncommon” and recognize any child is “constitutionally different” than an adult for
purposes of punishment. State v. Seats, 865 N.W.2d 545, 555 (Iowa 2015).
California likewise rejected as inadequate under Miller a limited resentencing
petition where the defendant has the opportunity to prove by a preponderance of
evidence the existence of qualifying mitigating circumstance. In re Kirchner, P.3d 2
Cal.5th 1040, 216 Cal.Rptr.3d 876, *8 (Apr. 24, 2017) (“possibility of consideration is
not the same as the certainty that Miller and Montgomery demand.”).
In addition, the Pennsylvania Supreme Court in Commonwealth v. Batts has
held that there must be a presumption against life without parole, and a juvenile
can only receive such a sentence if the state can prove beyond a reasonable doubt
that the juvenile cannot ever be rehabilitated. Id. Commonwealth v. Batts, 163 A.
3d 410, 416 (Pa. 2017); State v. Riley, 110 A.3d 1205, 1214 (Conn. 2015); State v.

11

Houston, 353 P.3d 55, 77, 83 (Utah 2015); State v. Seats, 865 N.W. 2d 545, 555
(Iowa 2015); State v. Hart, 404 S.W. 3d 232, 241 (Mo. 2013); Conley v. State, 972
N.E. 2d 864, 871 (Ind. 2012). North Carolina recently held that sentencing courts
may not start with a presumption in favor of life without parole. State v. James, 813
S.E. 2d 195 (N.C. 2018).
Other courts have upheld a presumption in favor of life without parole. The
Supreme Court of Washington upheld a sentencing scheme that makes life without
parole the presumptive sentence and places “the burden on the juvenile offender to
prove an exceptional sentence is justified.” Id. at 166. State v. Ramos, 387 P. 3d 650,
659 (Wash. 2017), (cert. denied, No. 16-9363, 138 S. Ct. 467 (2017)). Likewise, both
the Arizona and Virginia Supreme Courts place the burden on juvenile defendants
to show that they are ineligible for a life without parole sentence. See Jones v.

Commonwealth, 795 S.E.2d 705, 726 (Va. 2017) (Powell, J., dissenting); State v.
Valencia, 386 P.3d 392, 396 (Ariz. 2016).
Other courts do not impose a presumption either way. The Nebraska
Supreme Court held that a presumption against life without parole was “not
required by the U.S. Supreme Court . . . and we will not create one.” State v.

Mantich, 888 N.W.2d 376, 384 (Neb. 2016). Addressing an Oklahoma juvenile’s
challenge to a life without parole sentence imposed under a scheme where a judge
was permitted to choose a life sentence, the Tenth Circuit ruled, “ Miller said
nothing about non-mandatory life-without- parole sentencing schemes and thus
cannot warrant granting relief from a life- without-parole sentence imposed under

12

such a scheme.” Davis v. McCollum, 798 F.3d 1317, 1321 (10th Cir. 2015), cert.
denied, 136 S. Ct. 1524 (2016).
In Louisiana, the Supreme Court has not specifically addressed the issue, but
lower courts within the state have come to varying conclusions. The Louisiana
Third Circuit found that there is no presumption in favor of life with parole. State v.

Hauser, 19-341, p. 24 (La. App. 3 Cir. 12/30/19), 2019 La. App. LEXIS 2386, *37. Yet
a sentencing court in Louisiana imposed such a presumption in order to sentence a
juvenile to life with the possibility of parole, because the prosecution had not
sufficiently rebutted the presumption against life without parole. See State of

Louisiana v. Darnell Huntley, Appendix D, 96a-98a. In Darnell Huntley’s case, the
prosecution introduced three victim impact witnesses in addition to the trial court
record, and the sentencing court found that the prosecution had not met its burden:
The State presented no evidence of this offender’s current
maturity, character, or capacity for rehabilitation . . .
. . . Because there is no evidence in this record to support a
conclusion that Darnell Huntley is irretrievably depraved, irreparably
corrupt, incapable of rehabilitation, or the worst of the worst, this
court is compelled to resentence Darnell Huntley to the custody of the
Louisiana Department of Corrections and Safety for life at hard labor
and declare that he is eligible for parole in accordance with the law,
which is more specifically described in Revised Statute 15:574.4E.
Appendix D, 97a.
In Emmett Garrison’s case, the prosecution introduced no additional
evidence beyond the seriousness of the crimes, yet the sentencing court found that
Mr. Garrison had not met his burden of proving that he was capable of
rehabilitation, noting that Mr. Garrison did not have “even an expert who can say
that he has any potential for rehabilitation as of this moment,” Appendix B, 51a.

13

The court again emphasized the seriousness of the crime and admitted it was
expecting Mr. Garrison to carry the burden of proving his capacity for
rehabilitation, noting that “at this point, as per the expert testimony, he has no
prospective for any rehabilitation at this time.” Id. at 52a. And the Louisiana Fifth
Circuit recognized that such a presumption in favor of life without parole was
acceptable. Appendix A, 28a.
This variance between and within states means that the Eighth Amendment
signifies something different to a juvenile defendant in Iowa or California than it
does to a juvenile defendant in Louisiana or Washington. The resolution of this
question to clarify the substantive rights guaranteed to juvenile offenders under the
Eighth and Fourteenth Amendments would protect the rights of Emmett Garrison
as well as others across the nation who are similarly situated.
B. Unless this Question is resolved, sentencing courts can ignore the
constitutional significance of youth.
The lack of a clear presumption against life without parole in juvenile
sentencing cases allows some courts to disregard the substantive commands of

Miller/Montgomery entirely. It allowed the sentencing court here1 to follow the
procedure for safeguarding a juvenile’s Eighth Amendment rights set forth in

Miller/Montgomery yet give no effect to its substance. In its ruling, the sentencing

It should be noted that the life without parole sentence was handed down by a
different judge from the one who oversaw the trial. And since the prosecution did not
introduce any aggravating evidence, his determination that so much of the mitigating
evidence was, in fact, aggravating (see discussion infra) points to a true failure to take into
account how children are different, and a failure to meaningfully consider the mitigating
evidence.
1

14

court completely disregarded the constitutional significance of youth, held Mr.
Garrison to an adult standard, and turned mitigating factors like his violent
upbringing into aggravating factors. See Appendix B, 50a. The sentencing court’s
ruling turns the principles of Miller, Montgomery, and this Court’s long
jurisprudence regarding the appropriate assessment of juvenile offenders, on their
heads.
This case shows that under a presumption in favor of life without parole, it is
thoroughly impossible to fulfill the commands of Miller and Montgomery. At the
sentencing in this case, the prosecution ordered the entirety of the Court’s record as
its evidence and did not submit any additional evidence. Appendix B, 42a. The
defense presented two items of evidence. The first was the testimony of an expert in
psychiatry, who concluded that she did not have enough information to determine
whether Mr. Garrison would be responsive to rehabilitation, and she would not
likely be able to make that determination for about ten years. Appendix B, 50a.
Second, the defense admitted Mr. Garrison’s juvenile records, which provided
details of the violence and neglect he had endured throughout his childhood along
with his juvenile criminal record.2

The contents of these records document chronic neglect, violence, addiction, and
chaos within Mr. Garrison’s close and extended family. The records show neglect of Emmett
Garrison’s basic medical needs, his mother’s struggle with substance abuse, his parents’
lengthy criminal records, violent death of multiple family members in gang-related
retaliatory violence, the drive-by-shooting of his grandmother’s home, and the death of his
grandmother following Emmett Garrison’s uncle’s shooting death when Emmett was 12
years old. Not coincidentally, age 12 is when his juvenile criminal record began. The records
document his inability to extricate himself from the effects of the chaos surrounding him
and the behaviors of others in his family. In addition, they document his propensity toward
rehabilitation—a court-ordered therapist marveled at his “high level of engagement” in
2

15

The sentencing court interpreted both of these offerings of proof—the defense
expert testimony and the juvenile record—as aggravating factors. This Court in

Miller notes the great difficulty that courts will have in finding a juvenile offender
“whose crime reflects irreparable corruption.” The defense expert here found exactly
that difficulty: she could not determine that Mr. Garrison is irreparably corrupt.

See Appendix B, 45a; R. 852, 853. But the sentencing court began from the position
that Mr. Garrison is irreparably corrupt and required him to prove that he is not,
noting, “The expert . . . cannot form an opinion as to whether Mr. Garrison is one of
the rare juveniles whose crimes reflect irreparable corruption. In fact, the expert
claims it will be at least ten years after [his] imprisonment before anyone can
accurately predict whether or not [he has] any rehabilitative potential.” Appendix
B, 50a. The defense expert’s finding here supported Miller’s contention that it is
difficult to establish that rare juvenile whose crime is so bad that he cannot be
rehabilitated. But the trial court inverted that finding and instead used the absence
of evidence to find that Mr. Garrison cannot be rehabilitated, concluding, “at this
point, as per the expert testimony, he has no prospective for any rehabilitation at
this time.” Appendix B, 52a. (emphasis added).
The court’s finding that he has no prospective for any rehabilitation “at this
time” does not support a finding that Mr. Garrison is irreparably corrupt. It is an
acknowledgement that his current condition and response to rehabilitation are
temporary—consistent with what Miller, Graham, and Roper explain is what

Functional Family Therapy when he was 16 years old, a year before the crimes related to
this case. Record exhibit D-2, sealed doc. 90103.

16

should be generally expected of juvenile offenders.3 And this is consistent with the
expert’s testimony: she would need to see how Mr. Garrison responds to the
circumstances of his incarceration before any determination could be made that he
can not be rehabilitated. See Appendix B, 45a. The sentencing court’s interpretation
of the expert’s finding supported a sentence with parole, not a sentence without. A
presumption against life without parole would have prevented the sentencing
court’s faulty reasoning and sentencing.
The trial court likewise misinterpreted the evidentiary role of his family and
social history, which should be considered as mitigating circumstances, but which
the court interprets as a “pulsating environment of violence” which fueled his
criminal activity:
There are no more programs left for Mr. Garrison, no more
alternatives and not even an expert who can say that he has any
potential for rehabilitation as of this moment. What any reading of
your court record and your transcripts reflects is an escalating life of
crime and criminal activity fueled by a pulsating environment of
violence and little or no regard for human life except your own. He
leaves as his legacy in his community, death, and the maiming of
human life. Destruction of the highest degree.
Appendix B, 51a.
The court concluded that Mr. Garrison’s childhood reflects a “life of crime”
that began at age 12 and that Mr. Garrison committed these acts because he
desired to “achieve ultimate criminal status.” Id. at 51a. This demonstrates how the
court refused to take into account the ways that children’s brains are different, and

See Miller, supra, at 473, 479: Montgomery, supra at 726, 733; Roper v. Simmons, 543
U.S. 551, 571-573 (2005), Graham v. Florida, 560 U.S. 48, 74 (2010).
3

17

particularly the testimony of the defense expert regarding the way a child’s brain
responds to peer pressure, especially when acting in concert with an older
individual. See Appendix B, 43a-44a; R. 853 et seq. The sentencing court must take
into account how juveniles are different because, as this Court recognizes, a child is
unable to extricate or protect himself from his childhood circumstances.4 It is for
that reason that those circumstances are relevant to sentencing—in that they
mitigate against the harshest punishment. By requiring that Mr. Garrison be the
party who must prove the appropriateness of life with parole, the sentencing court
could avoid meaningfully considering the constitutional significance of youth and all
attendant mitigating circumstances.
The trial court should not have the discretion to turn a circumstance
recognized in the law as mitigating—here, for example, his childhood
circumstances—and determine that that circumstance is aggravating. The court
could have said that it considered Mr. Garrison’s childhood circumstances and other
considerations of his youth and found that they were not persuasive. But it cannot
turn that consideration into a factor supporting a sentence of life without parole.
Such an error could be prevented with the imposition of an explicit presumption
against the imposition of life without parole.

“Mandatory life without parole for a juvenile precludes consideration of his
chronological age and its hallmark features—among them, immaturity, impetuosity, and
failure to appreciate risks and consequences. It prevents taking into account the family and
home environment that surrounds him—and from which he cannot usually extricate
himself—no matter how brutal or dysfunctional. It neglects the circumstances of the
homicide offense, including the extent of his participation in the conduct and the way
familial and peer pressures may have affected him.” Miller, supra, at 2468.
4

18

In this case, the allocation of a presumption or a burden of proof is outcomedeterminative. Because of the timing of Mr. Garrison’s indictment and trial, he falls
into a small class of juvenile offenders who face life without parole for second degree
murder but who have not been in prison for any length of time sufficient to
demonstrate that their crimes reflected the transience of youth and that they are
responsive to rehabilitation. Under current law, prosecutors in Louisiana can no
longer seek a sentence of life without parole for a juvenile offender for second degree
murder. See La. C.Cr.P. art. 878.1 A. In 2017, the Louisiana Legislature responded
to Montgomery v. Louisiana, 136 S. Ct. 718 (2015), by recognizing that life without
parole for a juvenile offender is an exceptional sentence under the Eighth
Amendment. Prosecutors in Louisiana were given until August 1, 2017, to give
notice of their intent to seek juvenile life without parole for second degree murder
for crimes already indicted but not yet taken to trial. See Louisiana Legislature
2017 Act 277. For the crime of second degree murder indicted on or after August 1,
2017, a juvenile offender may only be sentenced to life with parole. See La. R.S.
15:574.4. Mr. Garrison was indicted prior to August 1, 2017, and he went to trial
the following month, in September 2017. So while the timing of his indictment
exposed him to the exceptional sentence of life without parole, his short period of
incarceration gave him very little time to build a record of proof that he is
responsive to rehabilitation.
Many of the offenders affected by this change in the law have served decades
in prison and thus have been able to demonstrate their capacity for rehabilitation.

19

Had Mr. Garrison been convicted 30 years ago, he would have the benefit of many
years in jail to demonstrate his potential for rehabilitation. Mr. Garrison is one of
the few offenders who falls in this gap in the law: he was indicted for second degree
murder prior to August 1, 2017, but his trial and sentencing took place soon after,
so he was not able to make a strong showing of his capacity for rehabilitation. And
in this case, the trial court held this lack of evidence against Mr. Garrison, instead
of requiring the State to put forth evidence supporting the sentence it was
seeking—life without parole. In a case like this, clarification of the presumption and
the required considerations under the Eighth Amendment is critical.
Under a fair reading of Miller and Montgomery, if the sentence of life without
parole cannot be automatic, there cannot logically be a presumption in favor of life
without parole. Even Louisiana’s approach to the sentencing of juveniles after

Montgomery required the prosecution to provide notice and specifically elect to seek
the sentence of life without parole for a juvenile convicted of second degree murder,
a recognition that this sentence is exceptional. To impose a presumption in favor of
life without parole, after the fact, as was done here by the sentencing court and the
court of appeals, undermines due process.
Mr. Garrison requests that the prosecution be held to an explicit burden of
proof if it wishes to sentence him to life without parole. Permitting courts to
continue imposing a presumption in favor of life without parole renders the
substantive guarantees explained in Miller and Montgomery inert. It further allows

20

courts like the sentencing court here to ignore the constitutional significance of
youth.
C. Resolving the Question Is an Issue of National Importance.
The issue this case raises is nationally important because meaningful
enforcement of Miller and Montgomery’s substantive command demands a
presumption in favor of life with parole. Miller prohibits sentencing authorities
from the automatic imposition of life without parole. 567 U.S. at 489. Montgomery
instructs sentencing authorities to limit life without parole to “the rarest of juvenile
offenders, those whose crimes reflect permanent incorrigibility.” 136 S. Ct. at 734.
That function necessarily precludes a presumption in favor of life without parole. A
juvenile life without parole sentence is essentially automatic when a court is going
mete out the ultimate punishment unless the juvenile defendant proves he is
worthy of life with parole. And it is automatic when the court is going to give it to
him unless he proves he is not permanently incorrigible. Without an explicit
presumption against life without parole, a sentencing court can give lip service to
the Eighth Amendment by holding a hearing, without ever giving effect to its
substantive command.
Lower courts throughout the country await this Court’s direction. Some
courts afford juvenile defendants fair sentencing hearings by holding the
prosecution to a burden of proving the appropriateness of the sentence of life
without parole—and requiring that they offer some proof of permanent
incorrigibility. Other courts, as in this case, adhere to sentencing schemes that flip

21

the principles of Miller and Montgomery on their heads—holding the defendant to a
burden of proving that he is exceptional—that he deserves something other than
the automatic or default imposition of life without parole.
It is the prosecution that must prove that the defendant is permanently
incorrigible, and the court must hold the prosecution to some measure of proof of
this finding. This Court’s resolution of the question would be profoundly
consequential for juvenile sentencings throughout the nation, and it would likely be
outcome-determinative for Emmett Garrison. Should this Court find that the
Eighth Amendment contains a presumption against life without parole, Mr.
Garrison would be entitled to a new sentencing hearing. At a hearing, it is unlikely
that the prosecution would be able to overcome such a presumption.
CONCLUSION
Mr. Garrison respectfully requests that this Court grant this writ to
determine whether the Eighth Amendment’s ban on automatic juvenile life without
parole sentences includes a presumption against that sentence.
Respectfully submitted,
Meghan Harwell Bitoun
Counsel of Record
P.O. Box 4252
New Orleans, LA 70178
(504) 470-4779
meghanbitoun@gmail.com
DECEMBER 2020

22

APPENDIX

23

